No.:________________

IN THE SUPREME COURT OF THE UNITED STATES
___________
Jeremy Todd Saunders, Petitioner,
v.
State of West Virginia, Respondent.
___________

On Petition for a Writ of Certiorari to the Supreme Court of Appeals of West Virginia

APPENDIX TO PETITION FOR WRIT OF CERTIORARI

Jeremy B. Cooper
Counsel of Record
Blackwater Law PLLC
6 Loop St. #1
Aspinwall, PA 15215
(304) 376-0037
jeremy@blackwaterlawpllc.com

APPENDIX TABLE OF CONTENTS
Document

Page

Signed Opinion of Supreme Court of Appeals of West Virginia in
State v. Jeremy S., Docket No. 19-0006....................................................... 1
Order of September 3, 2020 Denying Petition for Rehearing................................. 28
Trial Transcript, day four, December 1, 2017.......................................................... 29
Excerpt of Petitioner's brief in State v. Jeremy S..................................................... 53

IN THE SUPREME COURT OF APPEALS OF WEST VIRGINIA
January 2020 Term
_______________
No. 19-0006
_______________

FILED
June 8, 2020
released at 3:00 p.m.
EDYTHE NASH GAISER, CLERK
SUPREME COURT OF APPEALS
OF WEST VIRGINIA

STATE OF WEST VIRGINIA,
Plaintiff Below, Respondent
v.
JEREMY S.,
Defendant Below, Petitioner
____________________________________________________________
Appeal from the Circuit Court of Calhoun County
The Honorable R. Craig Tatterson, Judge
Case No. 14-F-29
AFFIRMED
____________________________________________________________
Submitted: March 24, 2020
Filed: June 8, 2020
Jeremy B. Cooper, Esq.
Blackwater Law PLLC
Kingwood, West Virginia
Counsel for Petitioner

Patrick Morrisey, Esq.
Attorney General
Lindsay S. See, Esq.
Solicitor General
Caleb A. Ellis, Esq.
Assistant Attorney General
Charleston, West Virginia
Counsel for Respondent

CHIEF JUSTICE ARMSTEAD delivered the Opinion of the Court.

APPENDIX 1

SYLLABUS BY THE COURT

1.

When a circuit court polls a jury pursuant to Rule 31(d) of the West

Virginia Rules of Criminal Procedure, it is within the circuit court’s sound discretion to
evaluate the jurors’ responses and determine whether clarifying questions should be asked
of the jurors.
2.

When a circuit court polls a jury pursuant to Rule 31(d) of the West

Virginia Rules of Criminal Procedure, and appropriate, neutral questions reveal that a juror
is confused about a matter, feels coerced to join the majority’s verdict, or is otherwise in
need of further instruction, the circuit court may respond in a very limited manner with
appropriate, non-coercive, neutral statements that address the concern.

APPENDIX 2

Armstead, Chief Justice:
Petitioner, Jeremy S.,1 was indicted for incest, sexual assault in the third
degree, and sexual abuse by a parent, guardian, custodian or person in a position of trust to
a child. He was tried twice in the Circuit Court of Calhoun County. The first trial resulted
in a hung jury. The second trial resulted in a conviction on nine counts. Petitioner appeals,
arguing (a) that the first trial actually resulted in his acquittal, (b) that the first trial was
wrongly continued over his objection, (c) that both trials were tainted by irrelevant, nonprobative, and prejudicial evidence, (d) that the second trial was tainted by a biased juror,
and (e) that two or more of these errors accumulated to his prejudice.
Based on the record before us, the arguments of the parties, and the
applicable law, we find no error; therefore, we affirm.
I. FACTUAL AND PROCEDURAL BACKGROUND
On August 13, 2013, Corporal J.B. Hunt of the West Virginia State Police
received a Child Protective Services (“CPS”) referral about Petitioner’s fourteen-year-old
daughter. Cpl. Hunt and two CPS workers interviewed the daughter, who reported several
instances of sexual abuse by Petitioner. The last instance had happened just two days
before, and the daughter said that it happened on or under a sleeping bag and a blanket,

Due to the sensitive facts of this case, we protect the victim’s identity by
using an initial for her father’s last name. See W. Va. R. App. P. 40(e) (2010). See e.g., In
re K.H., 235 W. Va. 254, 773 S.E.2d 20 (2015); Melinda H. v. William R., 230 W. Va. 731,
742 S.E.2d 419 (2013).
1

APPENDIX 3

both of which she described.2 Cpl. Hunt obtained a warrant that same day and searched
Petitioner’s house. He recovered a sleeping bag and a blanket and later delivered them to
the West Virginia State Police Forensic Laboratory (the “State Police Lab”) for testing.
Cpl. Hunt arrested Petitioner on September 2, 2013.
A Calhoun County grand jury indicted Petitioner on May 6, 2014. The
indictment charged Petitioner with eight counts, each, of (a) incest, (b) sexual assault in
the third degree, and (c) sexual abuse by a parent, guardian, custodian or person in a
position of trust to a child for a total of twenty-four counts. Petitioner appeared for
arraignment on May 19, 2014, and requested discovery.3 Petitioner (by counsel) advised
that he wished to be tried in the same term, so a pretrial hearing was set for June 30, 2014.
Trial was set for July 15, 2014.
On June 30, 2014, the State moved to continue the trial because the State had
yet to receive the police report. Petitioner objected, and the circuit court denied the State’s
motion to continue, observing that “[t]he State [wa]s at risk of having cases dismissed[.]”
Trial remained set for July 15, 2014.
Three days later, on July 3, 2014, the State provided its first discovery
response. This response was supplemented on July 7, 2014, and again on July 9, 2014.
The latter supplement included a report from the State Police Lab dated June 25, 2014,

2

We note that the daughter arguably described two different blankets.

3

Petitioner appeared before the Honorable David W. Nibert, who presided
over Petitioner’s case in the spring and summer of 2014.

APPENDIX 4

which the prosecutor seems to have received by fax on July 8, 2014. According to the
report, the State Police Lab found semen and hairs on the blanket. No relevant material
was found on the sleeping bag. The report advised that reference specimens should be
collected from relevant persons if the State wished to conduct further testing.
The State moved to continue the trial a second time on July 10, 2014.
According to the motion, neither Cpl. Hunt nor CPS Worker Loretta Smith, who had
interviewed the victim, was available for trial on July 15, 2014. The trooper was scheduled
to be on vacation then. The CPS worker had already left the state on her scheduled vacation
and would not be home in time to appear.
On July 12, 2014, Petitioner moved to suppress the State’s evidence and
dismiss the case with prejudice. Petitioner argued that the State’s discovery responses were
untimely and that he was “substantially prejudiced” by them.
Instead of trying the case on July 15, 2014, the court heard the parties’
motions. The court denied Petitioner’s motion to dismiss and granted the State’s motion
to continue, finding that the State had shown good cause. Trial was rescheduled for
September 30, 2014.
On July 15, 2014, the State filed a petition to obtain a DNA sample from
Petitioner. The circuit court heard argument on the State’s petition two days later and
granted the petition over Petitioner’s objection. DNA samples were collected from both
Petitioner and his daughter, and on September 17, 2014, the State produced a second report

APPENDIX 5

from the State Police Lab. This report advised that the blanket recovered from Petitioner’s
home contained sperm DNA from Petitioner and DNA from the daughter.
The September 30, 2014 trial was continued several times, and on July 29,
2016, Petitioner moved in limine to exclude the State’s DNA evidence. Petitioner claimed
that the State’s DNA analysis was unreliable and could not establish when, where, or how
the DNA came to be on the blanket. Accordingly, Petitioner asserted that the probative
value of the State’s DNA evidence was substantially outweighed by the danger of unfairly
prejudicing Petitioner, confusing the issues, and misleading the jury.4
Petitioner’s case was eventually set for trial on March 14, 2017, but the
circuit court was unable to proceed for lack of jurors. Accordingly, the court heard
testimony on Petitioner’s motion in limine to exclude the State’s DNA evidence.5
Petitioner called Cpl. Hunt to testify about the search for and seizure of the blanket.
Petitioner then called his own expert to testify (a) that DNA analysis could not say when
or how the DNA was deposited and (b) that the DNA on the blanket could have come from
other objects in the laundry room. After hearing Petitioner’s evidence, however, the circuit
court did not rule on his motion.

4

See W. Va. R. Evid. 403 (2014) (“The court may exclude relevant evidence
if its probative value is substantially outweighed by a danger of one or more of the
following: unfair prejudice, confusing the issues, misleading the jury, undue delay, wasting
time, or needlessly presenting cumulative evidence.”).
5

This hearing was before the Honorable R. Craig Tatterson, who presided
over the remainder of the case.

APPENDIX 6

The court withheld its ruling until November 28, 2017, on the morning of the
first day of Petitioner’s first trial.6 At that point, the circuit court denied the motion to
exclude the State’s DNA evidence, stating that “the jury can look at that and put whatever
weight the jury deems appropriate on that evidence.” As a result, the jury heard testimony
regarding the blanket and the State’s DNA analysis at both trials. Jurors also heard
testimony from Petitioner’s expert witness.
When the State rested during Petitioner’s first trial, Petitioner moved for
acquittal on all counts. The State agreed that there was no evidence on 15 of the 24 counts,
so those counts were dismissed, and the case was submitted to the jury on the remaining
nine counts.7 After several hours of deliberation, the jury advised by note that it could not
reach a unanimous decision. In response, the court called the jury back to the courtroom
and exhorted jurors to keep an open mind and to attempt to reach a unanimous verdict, if
possible, without sacrificing their individual convictions.8 Then the court instructed the
jury to try again for another half hour.

Petitioner’s case was continued numerous times between July 2014 and
November 2017. Petitioner only objects, however, to the first continuance in July 2014.
6

7

The remaining nine counts charged Petitioner with committing each of the
three crimes on three separate occasions.
The court referred to this instruction as an “Allen” instruction. See State v.
Waldron, 218 W. Va. 450, 459 n.11, 624 S.E.2d 887, 896 n.11 (2005) (“The Allen charge,
often called the ‘dynamite charge,’ is a supplemental instruction given to encourage
deadlocked juries to reach agreement.” Franklin D. Cleckley, Handbook on West Virginia
Criminal Procedure, Vol. II, page 257 (2nd Ed.1993). The name for this particular
8

APPENDIX 7

An hour later, the jury submitted a note requesting “a better explanation” of
the instruction that they were to acquit if the evidence permitted opposing conclusions of
both guilt and innocence. The court replied with a handwritten note—approved by both
counsel—stating, “If the jury feels two conclusions (guilty and not guilty) are possible
based on all the evidence, the jury should adopt the conclusion of innocence.”
The jury resumed deliberations and minutes later reached a verdict of not
guilty on all remaining counts. After the verdict was read, the following colloquy occurred:
THE COURT: . . . .
So says each member of the jury, is that your
verdict?
(Affirmative responses.)
THE COURT: Is there a request to poll the jury?
[THE PROSECUTOR]: Yes, Judge.
....
THE COURT: You heard the verdict which your
foreman signed and which the clerk read. When your name is
called, you will answer and signify whether the verdict was
then and is now your own true verdict.
THE CLERK: Marisha Collins, is that your verdict?
JUROR: I guess it has to be by the law.
THE COURT: Go through the list.

instruction originated from the case of Allen v. United States, 164 U.S. 492, 17 S.Ct. 154,
41 L.Ed. 528 (1896).”); see also Syl. Pt., State v. Blessing, 175 W. Va. 132, 331 S.E.2d
863 (1985) (charge urging a verdict).

APPENDIX 8

....
[THE CLERK/THE COURT]: [Juror], is that your
verdict?
[TEN JURORS]: Yes
THE CLERK: Ryan Slider, is that your verdict?
JUROR: By law, I guess.
THE COURT: Ms. Collins, you expressed some
hesitation as to whether or not that was your verdict. There
were several questions9 back to me to further explain the law.
After you heard my—what I’m going to say are written
explanations as to the law, was—is that your verdict?
JUROR: If it has to be.
THE COURT: It doesn’t have to be.
JUROR: Then no.
THE COURT: Okay. Mr. Slider, if I were to ask you
the same question I had just asked Ms. Collins, you—there
were several questions made during the course of deliberations.
I submitted handwritten answers. Is your verdict a verdict of
not guilty on all charges?
JUROR: No, Sir.
(Footnote added.)
After hearing this, the court sent the jury out to determine whether there was
any point in allowing more time to deliberate on their verdict. After a brief recess, the jury
advised the court that their minds were made up; they were deadlocked. The court asked

9

From the record, there was only one question that asked the court to clarify
the law, which is the one noted above.

APPENDIX 9

counsel, “Is there a motion? Or do you want the Court to make a finding on its own?”
Petitioner’s attorney moved for a mistrial, which was granted.
Petitioner’s second trial began on August 14, 2018. He was tried on nine
counts, in accordance with the evidence submitted at the first trial and the court’s
“judgment of acquittal on the other [15] counts.” During voir dire, a juror indicated that
she knew the victim and the two CPS workers and that she had a business or social
relationship with the prosecutor. She maintained, however, that these relationships would
not affect her ability to be fair.
Subsequently, the court conducted an individual voir dire of the same juror.
At that time, the juror said that she knew the victim from Civil Air Patrol. The juror was
deputy commander for cadets, and the victim had been a cadet. The juror thought that she
had known the victim since 2014, but they “really [had not] had contact in the past couple
of years.” As for CPS Worker Smith, the juror said that she knew her “around town[,]”
but they did not spend time together.10 Finally, the juror knew the prosecutor because the
juror had taught developmental guidance at the prosecutor’s school when the prosecutor
was in fifth grade. The juror had also participated in 4-H activities (such as camp) with the
prosecutor and her parents. The juror guessed that she knew the prosecutor “pretty well,”
but she thought that she could fairly assess the evidence. Petitioner’s attorney moved to

10

No one asked the juror during individual voir dire about her connection to
the other CPS worker.

APPENDIX 10

strike the juror for cause, but the court refused to do so, citing the juror’s “body language
and how she answered.”
Petitioner did not use a peremptory strike to remove this juror, and she
remained a member of the panel of jurors that convicted Petitioner on all nine counts.
Petitioner subsequently moved for a new trial, and the circuit court denied Petitioner’s
motion, later imposing an aggregate sentence of sixteen to forty years. Petitioner appeals
from the circuit court’s November 30, 2018 amended sentencing order.
II. STANDARD OF REVIEW
Petitioner assigns five errors to the proceedings below. First, Petitioner
contends that he was acquitted at his first trial and that the circuit court manufactured a
hung jury—and thus a mistrial—by polling the jurors in an improper manner. Yet, as
Petitioner concedes, his counsel failed to object when the circuit court was polling the jury.
Counsel’s failure to object forecloses appellate review of this issue, unless the circuit
court’s alleged error was plain error.11 State v. Miller, 194 W. Va. 3, 17, 459 S.E.2d 114,

11

The State contends, without support, that Petitioner waived his right to
object when he moved for a mistrial. We disagree. It is true that “[w]hen a right is waived,
it is not reviewable even for plain error” and, further, that “[o]nly a forfeiture is reviewable
under plain error.” State v. Crabtree, 198 W. Va. 620, 631, 482 S.E.2d 605, 616 (1996).
Yet waiver requires an “intentional relinquishment or abandonment of a known right[,]”
and nothing in the record suggests that Petitioner intentionally relinquished or abandoned
his right to object to the circuit court’s allegedly improper remarks when it polled the jury.
Syl. Pt. 6, in part, Crabtree, 198 W. Va. at 623, 482 S.E.2d at 608. Indeed, Petitioner
advised the circuit court, before the second trial, that he “felt railroaded” by the court’s
failure to question the two jurors about “which way they voted.” He claimed that he
“wanted that contested at that time because it was on the record. But [he] was told

APPENDIX 11

128 (1995). Plain error is error that is plain, that affects substantial rights, and that seriously
affects the fairness, integrity, or public reputation of the judicial proceedings. Syl. Pt. 7,
Miller, 194 W. Va. 3, 459 S.E.2d 114.
Petitioner also contends (a) that his first trial was wrongly continued over his
objection, (b) that both trials were tainted by irrelevant, non-probative, and prejudicial
evidence, and (c) that his second trial was tainted by a biased juror. When we review circuit
court rulings on motions to continue, on evidentiary matters, or on whether to excuse jurors
for bias or prejudice, we review the circuit court’s rulings for abuse of discretion. Syl. Pt.
2, State v. Bush, 163 W. Va. 168, 255 S.E.2d 539 (1979) (motion to continue); Syl. Pt. 4,
State v. Rodoussakis, 204 W. Va. 58, 511 S.E.2d 469 (1998) (evidentiary rulings); and
O’Dell v. Miller, 211 W. Va. 285, 288, 565 S.E.2d 407, 410 (2002) (juror bias or prejudice).
Finally, Petitioner asserts that two or more errors accumulated to his
prejudice. When a petitioner alleges cumulative error, we inquire whether “the record . . .
shows that the cumulative effect of numerous errors committed during the trial prevented
the defendant from receiving a fair trial, . . . even though any one of such errors standing
alone would be harmless error.” Syl. Pt. 5, in part, State v. Smith, 156 W. Va. 385, 193
S.E.2d 550 (1972). However, we apply this doctrine “‘sparingly’ and only where the errors
are apparent from the record.” State v. Peterson, 239 W. Va. 21, 35, 799 S.E.2d 98, 112
(2017) (quoting Tennant v. Marion Health Care Found., Inc., 194 W. Va. 97, 118, 459

[presumably by counsel], no, we couldn’t do that unless we lose and we appeal.” On these
facts, we find that Petitioner’s right to object was forfeit, not waived, which makes review
for plain error appropriate on appeal.

APPENDIX 12

S.E.2d 374, 395 (1995)). With these standards of review in mind, we will consider
Petitioner’s assignments of error.
III. ANALYSIS
As noted above, Petitioner raises five assignments of error. We will address
each one in turn.
A. First Trial—Acquittal
Petitioner argues that his conviction should be reversed because his first trial
resulted in an acquittal. According to Petitioner, the circuit court thwarted his acquittal by
polling the jury in an improper manner.
The West Virginia Rules of Criminal Procedure require a circuit court to poll
the jury whenever a party requests it or the court deems it appropriate. W. Va. R. Crim. P.
31(d) (1995). We have this rule to ensure that the verdict is unanimous, as required by the
Sixth Amendment to the United States Constitution and our Rules of Criminal Procedure.
Ramos v. Louisiana, ___ U.S. ___, ___, 140 S. Ct. 1390, 1397, ___ L. Ed. ___, ___ (2020);
W. Va. R. Crim. P. 31(a). As we have said, “the chief purpose behind an individual poll
of jurors is to enable a juror to express any reservation he may have about the verdict free
from the pressure of his fellow jurors.” State v. Tennant, 173 W. Va. 627, 630, 319 S.E.2d
395, 399 (1984).
During polling, however, it is not always clear whether a juror agrees (or
disagrees) with the verdict. Sometimes a juror’s candid response to, “Is that your verdict?”
creates ambiguity. Accordingly, we have held “that appropriate neutral questions may be

APPENDIX 13

asked of the juror to clarify any apparent confusion, provided the questions are not
coercive.” Syl. Pt. 2, in part, Tennant, 173 W. Va. 627, 319 S.E.2d 395. Such questions
are appropriate “when a juror indicates in a poll that he either disagrees with the verdict or
expresses reservations about it[.]” Id. Tennant authorizes, however, “only a very limited
inquiry” in order “to prevent the possibility of coercing the juror to conform to the verdict.”
Id. at 630, 319 S.E.2d at 399. If, after limited, neutral, and non-coercive questioning, the
juror continues to disagree with, or have reservations about, the verdict, “the trial court
must either direct the jury to retire for further deliberations or discharge the jury.” Id. at
628, 319 S.E.2d at 396, syl. pt. 2, in part.12
In Petitioner’s case, the State asked the circuit court to poll the jury, and ten
out of twelve jurors answered “Yes” to the finding of not guilty without qualification or
any apparent hesitation. Yet two jurors offered qualified responses—“I guess it has to be
by the law” and “By law, I guess”—that evidently suggested to the circuit court that these
jurors may have disagreed with the verdict or had reservations about it. Petitioner argues
that these responses were not sufficiently equivocal to prompt further inquiry, and he refers
us to a case in which the District of Columbia Court of Appeals held that a “juror’s response

12

See also State v. Cole, 180 W. Va. 412, 419, 376 S.E.2d 618, 625 (1988)
(“Juror No. 5 expressed some initial doubt as to the verdict. As permitted by Tennant, the
court questioned the juror in an attempt to clarify any possible confusion. The juror’s
answers to those questions did not dispel the existence of doubt. To the contrary, Juror No.
5 expressed reservations about the guilty verdict on three occasions. Once it became
apparent that the verdict was not unanimous, the court was duty bound to either direct the
jury to deliberate further or to declare a mistrial.”).

APPENDIX 14

[(“Guilty, I guess”)], in context, [did] not demonstrate uncertainty about appellant’s
guilt[.]” Johnson v. United States, 470 A.2d 756, 759 (D.C. App. 1983).
Yet Petitioner ignores Johnson’s reason for reaching this conclusion: “The
trial court is in a much better position to evaluate these factors than . . . an appellate
tribunal.” Id. at 760. As the Johnson court observed, “Guilty, I guess” can be understood
several different ways,13 and “[t]o determine which of these meanings should be ascribed
. . . , one must consider the juror’s demeanor and the tone and pattern of his speech.” Id.
Because of this, “the trial judge possesses ‘a measure of discretion’ in evaluating such
responses, and ‘the reasonable exercise of this discretion should be accorded proper
deference by a reviewing court.’” Id. (quoting United States v. Brooks, 420 F.2d 1350,
1353 (D.C. Cir. 1969)). In Johnson, the fact that the trial court allowed the jury poll to
continue, and the fact that defense counsel failed to object, showed that the juror’s response
of “Guilty, I guess” was unequivocal and that the trial court judge acted reasonably in
interpreting the response that way. Johnson, 470 A.2d at 760.
To return to Petitioner’s case, we were not present to hear or observe the
jurors’ responses, and Petitioner, himself, argues that their responses were susceptible to

While “‘Guilty, I guess’ could indicate that the juror was uncertain about
the defendant’s guilt, it also could mean that the juror was uncertain whether it was his turn
to speak, or unclear about the terminology that he should use.” Johnson, 470 A.2d at 760.
“I guess” can also function “as a meaningless addendum to an answer, without intending
to communicate uncertainty of any kind.” Id.
13

APPENDIX 15

more than one interpretation.14 Therefore, we are ill-equipped to second-guess the circuit
court’s determination that these responses warranted clarification. Furthermore, we agree
with the Johnson court and now hold that, when a circuit court polls a jury pursuant to Rule
31(d) of the West Virginia Rules of Criminal Procedure, it is within the circuit court’s
sound discretion to evaluate the jurors’ responses and determine whether clarifying
questions should be asked of the jurors.15
Petitioner also finds fault with the circuit court’s statement—“It doesn’t have
to be”—contending that it “amounted to abetting jury nullification” and was “wholly
improper[.]” We note that, in Tennant, we authorized a circuit court to ask “appropriate
neutral questions . . . to clarify any apparent confusion, provided the questions are not
coercive.” Syl. Pt. 2, in part, Tennant, 173 W. Va. 627, 319 S.E.2d 395 (emphasis added).
This language from Tennant might be taken to suggest that, in seeking to “clarify any

In one sentence in his brief, Petitioner suggests that “the words ‘I guess’
are essentially meaningless surplusage to the jurors’ implicit acknowledgment that they
had reached a not guilty verdict by applying the law.” In the next sentence, Petitioner
writes, “Another way of construing the jurors’ statements is that they were simply
unenthusiastic about the verdict the law required them to arrive upon.” (Emphasis added.)
Petitioner ignores a third possible interpretation—among, perhaps, many others—that the
two jurors were prepared to convict Petitioner but felt constrained to acquit him by some
aspect of the circuit court’s instructions that they were not certain they had understood.
14

15

We also believe that there is an important difference between (a) saying
that a juror’s response required a trial court to inquire further and (b) saying that a juror’s
response barred a trial court from inquiring further. Both sides in a criminal case have a
right to know that the jury’s verdict is unanimous, and—within reason—a trial court should
err on the side of certainty. Because of this, there are circumstances where a trial court has
discretion to inquire further even though it has no duty to do so.

APPENDIX 16

apparent confusion,” a circuit court must confine itself to asking questions. We reject that
understanding of Tennant.
As Tennant explains, “the chief purpose behind an individual poll of jurors
is to enable a juror to express any reservation he may have about the verdict free from the
pressure of his fellow jurors.” Id. at 630, 319 S.E.2d at 399. To advance this purpose, we
allow circuit courts to pose “appropriate neutral questions . . . to clarify any apparent
confusion[.]” Id. at 628, 319 S.E.2d at 396, syl. pt. 2, in part (emphasis added). If a circuit
court’s appropriate, neutral questions reveal, for example, that a juror is confused about a
matter or feels coerced to join the majority’s verdict, we fail to see how a circuit court can
correct the juror’s confusion, or assure the juror of his or her freedom to decide, without
making appropriate, neutral statements in response. We hold, therefore, that when a circuit
court polls a jury pursuant to Rule 31(d) of the West Virginia Rules of Criminal Procedure,
and appropriate, neutral questions reveal that a juror is confused about a matter, feels
coerced to join the majority’s verdict, or is otherwise in need of further instruction, the
circuit court may respond in a very limited manner with appropriate, non-coercive, neutral
statements that address the concern. Accord State v. Vandevender, 190 W. Va. 232, 235,
438 S.E.2d 24, 27 (1993) (per curiam) (“[T]he trial court did not err in polling the jury and
explaining to the jurors the necessity in arriving at a unanimous verdict. We find that the
comments and questions posed by the court to the jury were neutral and were not
coercive.”).

APPENDIX 17

In this case, the circuit court asked a juror if her verdict was to acquit
Petitioner. When she replied, “If it has to be[,]” the circuit court responded, “It doesn’t
have to be[,]” and the juror answered, “Then no.” This exchange, and the circuit court’s
statement in particular, is subject to interpretation. According to Petitioner, the circuit
court’s statement “explicitly invited [the jurors] to change their verdicts[.]” The State, by
contrast, argues that this statement assured the juror that she need not go along with the
majority. Either way, there was nothing coercive about the circuit court’s statement. On
the contrary, the circuit court’s statement seems to have freed the juror to express a verdict
that accorded with her views pursuant to the law as instructed by the circuit court.
Accordingly, the circuit court’s statement was neutral and appropriate.16
Therefore, we refuse to reverse his conviction based on the circuit court’s manner of polling
the jury.

In this case, Petitioner’s counsel did not object to the circuit court’s
statement. By failing to object, counsel deprived the circuit court (and this appellate court)
of whatever clarifications, if any, might have flowed from his objection. We need not
decide, however, whether the circuit court abused its discretion when it sought to clarify
the jurors’ responses or whether the circuit court acted inappropriately when it said that the
juror’s verdict did not “have to be” to acquit. Because Petitioner failed to preserve these
issues for appeal, it is enough for us to determine whether—if the circuit court did err in
these matters—the circuit court’s error was plain. Plain error is error that is “plain or
obvious[,]” State v. LaRock, 196 W. Va. 294, 316, 470 S.E.2d 613, 635 (1996), and “may
be plain under existing law” or “become[] plain on appeal because the applicable law has
been clarified[,]” Syl. Pt. 6, in part, State v. Myers, 204 W. Va. 449, 513 S.E.2d 676 (1998).
Based on our review of the record, we find that the circuit court did not commit plain or
obvious error.
16

APPENDIX 18

B. First Trial—Continuance
Petitioner argues next that the circuit court erred when it continued his first
trial past the first term of court,17 over his objection. According to Petitioner, “the sole
basis for the continuance was to spare the State the rightful consequences of its dilatory
discovery and failure to prepare.”

Petitioner’s characterization captures the State’s

predicament in June and July 2014. The State had failed to provide discovery in a timely
manner,18 and it had failed to secure two of its witnesses (Cpl. Hunt and CPS Worker
Smith) for trial.
The West Virginia Code provides that, “[w]hen an indictment is found in any
county, against a person for a felony or misdemeanor, the accused . . . shall, unless good
cause be shown for a continuance, be tried at the same term.” W. Va. Code § 62-3-1 (1981).
The circuit court found that the State showed “good cause” to continue Petitioner’s trial
based on unavailable witnesses. On the facts of this case, we find that “good cause” did
exist for Petitioner’s case to be continued to the following term.

17

Petitioner was indicted on May 6, 2014, which was the first day of the May
term. W. Va. T. C. R. 2.05. The next term began on the first Tuesday in September. Id.
When the circuit court granted the State’s motion to continue, it continued Petitioner’s trial
to September 30, 2014.
See W. Va. T. C. R. 32.03 (“At every arraignment . . . [,] the defendant
shall notify the court and the attorney for the State . . . whether discovery by the defendant
is requested. If discovery is requested, within fourteen (14) days the attorney[s] . . . shall
confer in order to comply with W.Va. R. Crim. P. 16 [(disclosure of evidence)], and make
available to the opposing party the items in their custody or control or which by due
diligence may become known to them.”).
18

APPENDIX 19

As of June 30, 2014, when the State first moved to continue the trial, the
State had yet to receive the police report, and the State’s first expert report from the State
Police Lab had only just been issued on June 25, 2014.19 When this motion to continue
was denied, the State provided its first discovery response days later, and it supplemented
this response twice in the coming days. This Court has previously held that a continuance
is not improper where, “there is nothing to indicate that the State intentionally or
oppressively sought to delay the trial[,] nor is there a showing that the delay [of the trial]
caused any substantial prejudice to the petitioner.” State v. McCartney, 228 W. Va. 315,
324, 719 S.E.2d 785, 794 (2011). Likewise, we do not believe that the State acted
“intentionally or oppressively” in this case or that Petitioner was caused any substantial
prejudice as a result of the delay.
Moreover, because the State’s delay in providing the requested discovery
was not intentional or oppressive, the circuit court correctly determined that a continuance
was the proper remedy to address such delay. “Our cases and the West Virginia Rules of
Evidence have declared an implicit preference for a continuance when there has been a
discovery violation[,]” and we have held that Petitioner’s preferred remedy of “dismissal
should be used sparingly and only when the prosecution has been derelict in its effort to
comply with discovery orders.” State ex rel. Rusen v. Hill, 193 W. Va. 133, 141, 454
S.E.2d 427, 435 (1994). In this case, the State’s discovery response was late but not

19

As noted above, the record suggests that the prosecutor did not receive this
report until July 8, 2014. The prosecutor supplemented discovery the next day.

APPENDIX 20

“derelict.” Under the circumstances, continuing Petitioner’s case caused no “great . . .
disruption in the trial process” and, by affording Petitioner additional time to prepare for
trial, fully dissipated any arguable prejudice caused by the State’s untimely disclosure.20
Id. Accordingly, we find no error in the circuit court’s decision to continue Petitioner’s
trial, and we refuse to reverse his conviction based on the circuit court’s reasonable exercise
of discretion.
C. First and Second Trials—Improper Evidence
Petitioner also challenges the circuit court’s decision to admit the State’s
DNA evidence, which was extracted from a blanket found in Petitioner’s laundry room.
According to Petitioner, the State’s DNA evidence was “wholly irrelevant, non-probative,
and prejudicial” because “there was no way to distinguish between DNA that could have
had a nexus to the alleged crimes, and DNA that was wholly explainable as a natural result
of the Petitioner having contact with his own articles in his own home.” Petitioner alleges
that the circuit court made “no findings that the DNA evidence was relevant, nor that it was
substantially more probative than prejudicial under Rules 401 and 403 of the Rules of
Evidence.”
Rule 401 of the West Virginia Rules of Evidence provides that “[e]vidence
is relevant if . . . it has any tendency to make a fact more or less probable than it would be

20

We also note that the circuit court released Petitioner from pre-trial
incarceration on the intended date of trial.

APPENDIX 21

without the evidence[.]” W. Va. R. Evid. 401(a).21 The DNA evidence in question showed
that the blanket recovered from Petitioner’s home contained sperm DNA from Petitioner
and also contained DNA from his daughter. Petitioner cannot seriously contend that this
evidence did not tend to make the fact that Petitioner had sexual intercourse with his
daughter “more or less probable than it would [have] be[en] without the evidence[.]” W.
Va. R. Evid. 401(a) (emphasis added). “The relevant inquiry is whether a reasonable
person, with some experience in the everyday world, would believe that the evidence might
be helpful in determining the falsity or truth of any fact of consequence.” State v. Derr,
192 W. Va. 165, 178, 451 S.E.2d 731, 744 (1994) (emphasis added). Plainly, the State’s
DNA evidence met this minimal threshold of relevance under Rule 401.
Rule 403 authorizes a circuit court to “exclude relevant evidence if its
probative value is substantially outweighed by a danger of . . . unfair prejudice, confusing
the issues, misleading the jury, undue delay, wasting time, or needlessly presenting
cumulative evidence.” W. Va. R. Evid. 403. Petitioner’s objections to the State’s DNA
evidence had nothing to do with “unfair prejudice, confusing the issues, misleading the

21

The circuit court made no express finding, but it did have this to say when
it granted the State’s motion to secure a DNA sample from Petitioner:
At this point, I am probably not in a real good position to
analyze the probative value of the evidence, either way it turns
out. Obviously, if it’s not Mr. [S.’s], it might be deemed to be
exculpatory evidence. It may not have a high degree of
probative value, I don’t know. But this is something the State
has the burden of going forward here, and if the State wants to
go this route, I think the State is entitled to secure samples and
swabs.

APPENDIX 22

jury,” or any other outcome of concern under Rule 403. “The mission of Rule 403 is to
eliminate the obvious instance in which a jury will convict because its passions are aroused
rather than motivated by the persuasive force of the probative evidence.” State v. Guthrie,
194 W. Va. 657, 682–83, 461 S.E.2d 163, 188–89 (1995).

Petitioner’s arguments

addressed the weight of the State’s DNA evidence, not its “pronounced tendency . . . to
lead the jury . . . to convict a defendant for reasons other than the defendant’s guilt.” Id. at
683, 461 S.E.2d at 189. Accordingly, and despite Petitioner’s insistence otherwise, Rule
403 had no bearing on whether the State’s DNA evidence was admissible, and the circuit
court’s express reason for denying Petitioner’s motion—that the weight of the State’s DNA
evidence was for the jury to decide22—was correct and went to the heart of the matter.
In the end, we agree with the State that the defect that Petitioner ascribes to
the State’s DNA evidence—that it did not necessarily exclude his innocence—is true of
many forms of circumstantial evidence. Yet for nearly twenty-five years, we have rejected
a rule that “circumstantial evidence will not support a guilty verdict unless the fact of guilt
is proved to the exclusion of every reasonable hypothesis of innocence[.]” Id. at 668, 461
S.E.2d at 174 (quoting and overruling State v. Noe, 160 W.Va. 10, 15, 230 S.E.2d 826,
829–30 (1976)) (alteration removed). Instead, we have recognized that
[c]ircumstantial evidence . . . is intrinsically no different
from testimonial evidence.
Admittedly, circumstantial
evidence may in some case[s] point to a wholly incorrect result.
Yet this is equally true of testimonial evidence. In both
In denying Petitioner’s motion to exclude the State’s DNA evidence, the
circuit court stated, “That evidence—the jury can look at that and put whatever weight the
jury deems appropriate on that evidence.”
22

APPENDIX 23

instances, a jury is asked to weigh the chances that the evidence
correctly points to guilt against the possibility of inaccuracy or
ambiguous inference. In both, the jury must use its experience
with people and events in weighing the probabilities. If the
jury is convinced beyond a reasonable doubt, we can require
no more.
Guthrie, 194 W. Va. at 668, 461 S.E.2d at 174 (quoting Holland v. United States, 348 U.S.
121, 140, 75 S. Ct. 127, 137–38, 99 L. Ed. 150, 166 (1954)) (alteration to conform
quotation to original). For these reasons, we find no error in the circuit court’s decision to
allow the jury to hear the State’s DNA evidence, and we refuse to reverse Petitioner’s
conviction based on the circuit court’s reasonable exercise of discretion in this matter.
D. Second Trial—Biased Juror
Petitioner finds additional fault with the circuit court’s decision, at his second
trial, to seat a juror who admitted to knowing the victim and the prosecutor.23 According
to Petitioner, “it was an abuse of the Circuit Court’s discretion to leave on [the jury] a juror
who had so many indicia of connections to the case,” especially a juror who formerly held
a position of “heightened trust” with respect to the victim and the prosecutor.
Petitioner was entitled to a fair trial, and “[a] fair trial . . . requires a fair and
impartial jury.” State v. Peacher, 167 W. Va. 540, 552, 280 S.E.2d 559, 569 (1981). “[A]
trial court must grant a challenge for cause [and remove a juror] if [the] prospective juror’s

Petitioner’s brief focuses on the juror’s connections with the victim and
the prosecutor, but Petitioner also mentions the juror’s “relationship with” CPS Worker
Smith, whom the juror knew “around town.” We find this relationship even more
attenuated than the juror’s relationships with the prosecutor and the victim. To the extent,
if any, Petitioner contends that knowing the CPS worker “around town” was a predicate
for excluding the juror, we reject this contention.
23

APPENDIX 24

actual prejudice or bias is shown” during voir dire. State v. Miller, 197 W. Va. 588, 605,
476 S.E.2d 535, 552 (1996). “Actual bias can be shown either by a juror’s own admission
of bias or by proof of specific facts which show the juror has such prejudice or connection
with the parties at trial that bias is presumed.” Syl. Pt. 5, Miller, 197 W. Va. at 593, 476
S.E.2d at 540. “Once a prospective juror has made a clear statement during voir dire
reflecting or indicating the presence of a disqualifying prejudice or bias, the prospective
juror is disqualified as a matter of law and cannot be rehabilitated by subsequent
questioning, later retractions, or promises to be fair.” Syl. Pt. 5, O’Dell v. Miller, 211 W.
Va. 285, 565 S.E.2d 407 (2002).
Yet, in Petitioner’s case, the juror neither confessed bias nor admitted to facts
that showed she was presumptively biased. The juror said that she knew the victim from
Civil Air Patrol, where the juror was deputy commander and the victim had been a cadet,
but the juror had not been in contact with the victim for a “couple of years.” The juror’s
connection to the prosecutor was even more remote. The juror knew the prosecutor
because the juror taught at the same school the prosecutor attended when the prosecutor
was in fifth grade and because the juror shared some social activities with the prosecutor
and her parents when the prosecutor was in 4-H. It is clear that these activities, and the
prosecutor’s fifth-grade year, happened many years ago. Admittedly, the juror thought that
she knew the prosecutor “pretty well,” but she also thought that she could fairly assess the
evidence, and the circuit court believed her, citing the juror’s “body language and how she
answered.”

APPENDIX 25

The circuit court’s credibility determination carries substantial weight with
us. Miller, 197 W. Va. at 606, 476 S.E.2d at 553. We have said that “the challenging party
bears the burden of persuading the trial court that the juror is partial and subject to being
excused for cause.” Id. Only “a clear and definite impression that a prospective juror
would have been unable faithfully and impartially to apply the law” will lead us to
intervene on appeal. Id. As we said in Miller, Petitioner has met “neither the burden of
production nor the burden of persuasion[,]” and we decline to intervene in this matter.24
Id. Accordingly, we find no error in the circuit court’s refusal to dismiss the challenged
juror, and we refuse to reverse Petitioner’s conviction based on the circuit court’s
reasonable exercise of discretion in this matter.
E. Cumulative Error
Finally, Petitioner contends that the circuit court’s several alleged errors
accumulated to his prejudice. We have held that, “[w]here the record of a criminal trial
shows that the cumulative effect of numerous errors committed during the trial prevented
the defendant from receiving a fair trial, his conviction should be set aside, even though
any one of such errors standing alone would be harmless error.” Syl. Pt. 5, State v. Smith,

We also reject Petitioner’s argument that—by way of analogy to the facts
in O’Dell, 211 W. Va. 285, 565 S.E.2d 407—the juror formerly occupied a position of trust
with respect to the victim and the prosecutor that made it inappropriate for the juror to hear
Petitioner’s case. Petitioner misunderstands the relevant dynamic. In O’Dell, the
defendant and the defendant’s attorney occupied the position of trust with respect to the
juror. Id. at 287, 565 S.E.2d at 409. In Petitioner’s case, the juror occupied the position
of trust, to the extent such trust may have existed, with respect to the victim and the
prosecutor.
24

APPENDIX 26

156 W. Va. 385, 193 S.E.2d 550 (1972). The threshold standard is “numerous errors
committed during” a single trial. Id. Petitioner had two trials and has yet to show that the
circuit court committed a single error in either trial, whether harmless or otherwise.
Accordingly, Petitioner has no basis for relief, and we refuse to reverse his conviction on
the alleged ground of cumulative error.
IV. CONCLUSION
For all of the foregoing reasons, we affirm Petitioner’s conviction and the
circuit court’s November 30, 2018 amended sentencing order.
Affirmed.

APPENDIX 27

APPENDIX 28

532
IN THE CIRCUIT COURT OF CALHOUN COUNTY, WEST VIRGINIA
STATE OF WEST VIRGINIA,
Plaintiff,
v.

ACTION NO. 14-F-29
Hon. R. Craig Tatterson

JEREMY SAUNDERS,
Defendant.
TRANSCRIPT OF PROCEEDINGS HELD before
Honorable R. Craig Tatterson of the TRIAL, VOLUME IV, in the
above-styled matter on Friday, the 1st day of December,
2017, at 9:32 a.m.
APPEARANCES:
On Behalf of the Plaintiff:
Shannon S. Johnson, Esq.
Calhoun County Prosecuting Attorney
363 Main Street, Suite 301
Grantsville, West Virginia 26147
On Behalf of the Defendant:
Daniel F. Minardi, Esq.
Andrew G. Vodden, Esq.
Fifth Circuit Public Defender Corporation
214 Main Street West
Ripley, West Virginia 25271-0797

Erin E. Kincaid, RPR

APPENDIX 29

533
I N D E X
TRIAL, VOLUME IV: DECEMBER 1, 2017
VERDICT

542

REPORTER'S CERTIFICATION

555

APPENDIX 30

534

1

(Proceedings outside the presence of the jury.)

2

THE COURT: We're on the record with Case No. 14-F-29, the

3

State of West Virginia versus Jeremy Saunders. Mr. Saunders

4

appears in person and with his lawyer, Andrew Vodden. Shannon

5

Johnson for the State of West Virginia.

6
7
8
9

Is Mr. Minardi close by? Or is there any need for
him at this point?
MR. VODDEN: I've tried calling him. I haven't gotten
through to his phone. I tried texting him. He hasn't

10

responded to me yet. I don't think at this point we need him

11

to go.

12
13

THE COURT: Do you know if all members of the jury are
here?

14

THE BAILIFF: They are, sir.

15

THE COURT: If you'll bring them in, please.

16

(Proceedings in the presence of the jury.)

17

THE COURT: Please be seated. Good morning.

18

MS. JOHNSON: Good morning, Judge.

19

THE COURT: The Court notes the appearance of all members

20
21

of the jury.
I'm glad to see all of you all. I had fog all the

22

way south of Gallipolis Ferry in Mason County, south of Point

23

Pleasant, to Grantsville. So I got behind three or four cars.

24

And I was pretty much glad I was behind them because I didn't

APPENDIX 31

535

1

want to be driving any faster than I was. So I'm kind of --

2

I'm pleasantly surprised that everybody is here on time and

3

ready to go.

4

So at this time, I'm going to send you back to the

5

jury room. And again this time with the instruction now's the

6

time you talk about the case. You will have the -- all of the

7

exhibits in the jury room. Again, if there's any questions,

8

please have the foreperson write them out and let the bailiff

9

know. And with that, get to work.

10

(Proceedings outside the presence of the jury.)

11

THE COURT: In recess.

12

(A break was taken from 9:36 a.m. to 11:32 a.m.)

13

(Proceedings in the presence of the jury.)

14

THE COURT: We're back on the record in 14-F-29.

15

I've seen the note. I'm going to excuse you all for

16

lunch. I had told the prosecutor I wasn't going to bring you

17

back in, and then decided I should. I told Mr. Vodden I wasn't

18

going to bring you back in, so he took his tie off. So that's

19

why he was putting his tie back on. So this is just a

20

procedural matter I couldn't progress to in the jury room.

21

Come back -- do you need an hour? How long do you need?

22

JUROR: Yeah. Just the normal lunch hour. That's it.

23

THE COURT: Okay. Be back at 12:30 outside the courtroom.

24

I'll bring you back in. And while you are not in the jury

APPENDIX 32

536

1

room, don't discuss it. Don't allow anybody to talk to you.

2

If anybody tries to, let the bailiff know or let me know.

3

Enjoy your lunch. I'll see you in an hour.

4

(Proceedings outside the presence of the jury.)

5

THE COURT: See you all in a little bit.

6

(A break was taken from 11:34 a.m. to 1:16 p.m.)

7

THE COURT: We're back on the record in 14-F-29, State of

8

West Virginia versus Jeremy Saunders. Mr. Saunders appears by

9

-- in person and with his lawyers. Prosecuting attorney also

10

appears.

11

I have a handwritten note from the jury foreman. On

12

State Exhibit 10, there are multiple notes that say - and then

13

in quotation marks - CMD's dictations - end quotation marks.

14

But none of us can find a doctor's statement and were wondering

15

if there was one that had never been presented or given to us.

16

Signed who I believe is the jury foreperson.

17

If you-all want to take a look at it, you may.

18

MS. JOHNSON: My response to that is that that is the

19

complete exhibit. You know, they've never been given that. So

20

if they can't find it within those papers that they have, that

21

it's not here.

22

THE COURT: Any objection to something similar to that?

23

MR. MINARDI: No, Your Honor.

24

THE COURT: I would just put -- I'll handwrite on the back

APPENDIX 33

537

1

of this response, The jury has all the exhibits that were

2

introduced in trial.

3

Is that sufficient?

4

MS. JOHNSON: Yeah.

5

THE COURT: The jury has all the exhibits in its

6

possession that were introduced at trial.

7
8

Now is that sufficient? I mean, that answers the
question without -- I think that's short enough.

9

MS. JOHNSON: I think so.

10

THE COURT: Everybody agree? Okay.

11

MR. VODDEN: I agree.

12

THE COURT: I'm going to sign it.

13
14

Sheila, if you'll show that to them. Then give it to
the bailiff.

15
16

Hearing no objections, it will go to the jury that
way.

17

MR. VODDEN: No objection.

18

THE COURT: In recess.

19

(A break was taken from 1:19 p.m. to 2:49 p.m.)

20

(Proceedings outside the presence of the jury.)

21

THE COURT: On the record in 14-F-29, outside the presence

22

of the jury. Court notes the appearance of Mr. Saunders in

23

person and with his lawyers. State of West Virginia by the

24

prosecuting attorney.

APPENDIX 34

538

1

Received a note. I have shared it with counsel for

2

the state and counsel for the defendant. Unfortunately cannot

3

come to a unanimous decision even after hours of back and forth

4

deliberation and debating in this case. It's signed by the

5

foreperson.

6

I have provided the blessing instruction or the Allen

7

instruction. Counsel is reviewing it now.

8

Are there any objections to that?

9

MR. MINARDI: Not on the part of the defense.

10

MS. JOHNSON: No, Judge.

11

THE COURT: Okay. Bring it back up, please.

12

Sheila, will you put the note in the file?

13

THE CLERK: I sure will.

14

THE COURT: All right. Will you bring the jury in,

15

please?

16

(Proceedings in the presence of the jury.)

17

THE COURT: Please be seated.

18

The Court notes that all members of the jury are

19

present and accounted for. The Court will place on the record

20

that the Court has received a note from the foreperson that it

21

appears the jury has been unable to make a decision. I am

22

going to give you further instructions at this time.

23
24

You've informed the Court of your inability to reach
a verdict. At the outset, the Court wishes you to know that

APPENDIX 35

539

1

although you have a duty to reach a verdict if that is

2

possible, the Court has neither the power nor the desire to

3

compel agreement upon a verdict.

4

The purpose of these remarks is to point out to you

5

the importance and the desirability of reaching a verdict in

6

this case, provided, however, that you as individual jurors can

7

do so without surrendering or sacrificing your conscious

8

scruples or personal convictions.

9

You'll -- you'll recall that upon assuming your

10

duties in this case each of you took an oath. That oath places

11

upon each of you as individuals the responsibility of arriving

12

at a true verdict upon the basis of your own opinion and not

13

merely upon acquiescence in the conclusions of your fellow

14

jurors. However, it by no means follows that opinions may not

15

be changed by conference in the jury room.

16

The very object of the jury system is to reach a

17

verdict by a comparison of proofs with your fellow jurors.

18

During your deliberations, you should be open minded and

19

consider the issues with proper deference to and respect for

20

the opinions of each other. And you should not hesitate to

21

re-examine your own views in the light of such suggestions.

22

You should consider also that this case must at some

23

time be terminated. That you are selected from the same source

24

from which any future jury must be selected. That there is no

APPENDIX 36

540

1

reason to suppose that the case will ever be submitted to 12

2

persons more intelligent, more impartial, or more competent to

3

decide it, or that more or clearer evidence will ever be

4

produced on one side or the other.

5

So with that, I'm going to send you all back to try

6

again. It is 3:30 right now. If at 4:00 you remain so

7

deadlocked, please furnish a note to the bailiff. Bring it to

8

my attention. But I want you to consider what I just read to

9

you, and go back and give it one more shot. So -- but at four

10

o'clock, if you guys have not made any progress, let us know.

11

Thank you.

12

(Proceedings outside the presence of the jury.)

13

THE COURT: Okay. Please be seated.

14

Anything to take up?

15

MR. MINARDI: Not at this time.

16

MS. JOHNSON: Do we have to stop at four?

17

THE COURT: I will see where they are at four. And we'll

18

just go from there. If they're making progress, we'll stay

19

here until they're done.

20

MS. JOHNSON: Okay.

21

THE COURT: If they're not making progress, then we'll

22

see.

23

MS. JOHNSON: Okay.

24

THE COURT: In recess .

APPENDIX 37

541

1

(A break was taken from 3:30 p.m. to 4:30 p.m.)

2

THE COURT: We are back on the record in Case No. 14-F-29,

3

the State of West Virginia versus Jeremy Saunders.

4

Mr. Saunders appears with his attorneys. The prosecuting

5

attorney is also here.

6

While we were in recess, we received a handwritten

7

note from the jury. May we get a better explanation of the

8

paragraph explaining reasonable doubt where it says that the

9

jury views evidence as permitting two conclusions of innocence

10

or guilt, that the jury should adopt a conclusion of innocence

11

on the third paragraph of page five? It is then signed by the

12

grand [sic] jury foreman. Provided the note to counsel for the

13

defendant, also prosecuting attorney.

14

I believe it's agreed upon that I'm going to

15

handwrite on the bottom of this, If the jury feel two -- feels

16

two conclusions - in parentheses - guilty and not guilty - end

17

parentheses - are possible based on all the evidence, the jury

18

should adopt the conclusion of innocence. Is that correct --

19

MS. JOHNSON: Yeah.

20

THE COURT: -- and agreed upon?

21

MR. MINARDI: Yes.

22

THE COURT: No objections?

23

MS. JOHNSON: No objection.

24

THE COURT: Okay. I will do my best to make it legible.

APPENDIX 38

542

1
2

Will you please show that to counsel? And if there
are still no objections, return it to the jury room.

3

MS. JOHNSON: No objection, Judge.

4

MR. MINARDI: No objection.

5

THE COURT: Okay. We're in recess.

6

(A break was taken from 4:33 p.m. to 4:41 p.m.)

7

THE COURT: We're back on the record in Case No. 14-F-29,

8

State of West Virginia versus Jeremy Saunders. Mr. Saunders

9

again appears in person and with his attorneys. The

10

prosecuting attorney is present representing the State of West

11

Virginia.

12
13
14
15

I've received an indication from the bailiff that the
jury has reached a verdict.
I'm going to ask the foreperson, has the jury reached
a verdict?

16

FOREPERSON: Yes, sir.

17

THE COURT: Will you please deliver the verdict form to

18
19
20
21

the bailiff?
I'm going to hand the verdict to the clerk and ask
that she read the verdict.
THE CLERK: Jury verdict count one. We the members of the

22

petit jury, as to count one of the indictment, we find the

23

defendant, Jeremy Todd Saunders, not guilty.

24

We the members of the petit jury, as to count five as

APPENDIX 39

543

1

to the issued joined as count five of the indictment find the

2

defendant, Jeremy Todd Saunders, not guilty.

3

We the members of the petit jury, as to the issues

4

joined as count eight of the indictment, find the defendant,

5

Jeremy Todd Saunders, not guilty.

6

We the members of the petit jury as to the issues

7

joined as count nine of the indictment, find the defendant,

8

Jeremy Todd Saunders, not guilty.

9

We the members of the petit jury, as to the issues

10

joined as count 13 of -- of the indictment, find the defendant,

11

Jeremy Todd Saunders, not guilty.

12

We the members of the petit jury, as to issues joined

13

as count 16 of the indictment, find the defendant, Jeremy Todd

14

Saunders, not guilty.

15

We the members of the petit jury, as to issues joined

16

as count 17 of the indictment, find the defendant, Jeremy Todd

17

Saunders, not guilty.

18

We the members of the petit jury, as to the issues

19

joined as count 21 of the indictment, find the defendant,

20

Jeremy Todd Saunders, not guilty.

21

We the members of the petit jury, as to the issues

22

joined as count 24 of the indictment, find the defendant,

23

Jeremy Todd Saunders, not guilty.

24

THE COURT: If you'll please deliver the jury verdict form

APPENDIX 40

544

1

to counsel so they can inspect the same.

2
3

So says each member of the jury, is that your
verdict?

4

(Affirmative responses.)

5

THE COURT: Is there a request to poll the jury?

6

MS. JOHNSON: Yes, Judge.

7

THE COURT: We'll have to go back and get a list of names.

8

We've been back and forth.

9

THE CLERK: I'm sorry.

10

MS. JOHNSON: Do you want -- I have --

11

THE CLERK: Do you have a list?

12

MS. JOHNSON: -- one in my office.

13

THE CLERK: The one that has the 13?

14

MS. JOHNSON: Uh-huh.

15

THE CLERK: Can I have that, please?

16

MS. JOHNSON: Yeah. It's right in the box on the table in

17
18

my office.
THE COURT: You heard the verdict which your foreman

19

signed and which the clerk read. When your name is called, you

20

will answer and signify whether that verdict was then and is

21

now your own true verdict.

22

THE CLERK: Marisha Collins, is that your verdict?

23

JUROR: I guess it has to be by the law.

24

THE COURT: Go through the list.

APPENDIX 41

545

1

THE CLERK: Amanda Frederick, is that your verdict?

2

JUROR: Yes.

3

THE COURT: Samuel McCartney, is that your verdict?

4

JUROR: Yes.

5

THE COURT: Lisa McCumbers, is that your verdict?

6

JUROR: Yes.

7

THE CLERK: Matthew Nicholson, is that your verdict?

8

JUROR: Yes.

9

THE CLERK: Michele Nicholas, is that --

10

JUROR: Yes.

11

THE CLERK: -- your verdict?

12

JUROR: Yes.

13

THE CLERK: Stephen Pope, is that your verdict?

14

JUROR: Yes.

15

THE COURT: Lisa Ramsey, is that your verdict?

16

JUROR: Yes.

17

THE CLERK: Gary Richards, is that your verdict?

18

JUROR: Yes.

19

THE COURT: Marty Roberts, is that your verdict?

20

JUROR: Yes.

21

THE CLERK: Robert Siers, is that your verdict?

22

JUROR: Yes.

23

THE CLERK: Ryan Slider, is that your verdict?

24

JUROR: By law, I guess.

APPENDIX 42

546

1

THE COURT: Ms. Collins, you expressed some hesitation as

2

to whether or not that was your verdict. There were several

3

questions back to me to further explain the law. After you

4

heard my -- what I'm going to say are written explanations as

5

to the law, was -- is that your verdict?

6

JUROR: If it has to be.

7

THE COURT: It doesn't have to be.

8

JUROR: Then no.

9

THE COURT: Okay. Mr. Slider, if I were to ask you the

10

same question I had just asked Ms. Collins, you -- there were

11

several questions made during the course of deliberations. I

12

submitted handwritten answers. Is your verdict a verdict of

13

not guilty on all charges?

14

JUROR: No, sir.

15

THE COURT: Okay. At this time, I am going to direct the

16

jury to go back to the jury room. What I'm going to instruct

17

you to do now is -- you're not deliberating on the verdict.

18

You are -- you are going to determine whether or not getting

19

dinner, coming back, and deliberating more may help. Or if

20

coming back -- coming back on Monday after having the weekend

21

off may help. I'm not doing this in any way to try to

22

influence a decision one way or the other. The only thing I

23

want a response back whenever you come back in here is more

24

time may help, more time will not help.

APPENDIX 43

547

1

So I can't let you do it here in the presence of

2

everybody else. So with that, I'm going to send you back to

3

the jury room with the instruction to make a determination as

4

to whether you are hopelessly deadlocked or whether or not you

5

need more -- you think more time may help.

6
7

So, Bailiff, if you will take them back to the jury
room.

8

(Proceedings outside the presence of the jury.)

9

THE COURT: Be seated, please. We're out of the presence

10
11

of the jury.
In 19 years, I've never seen that. I think it's

12

probably the reason why whenever you give that Allen or the

13

blessing instruction they say it should be given in utmost --

14

with utmost caution. We'll be in recess until the jury comes

15

back and let's us know. I don't anticipate this taking them

16

very long.

17

(A break was taken from 4:50 p.m. to 4:56 p.m.)

18

(Proceedings outside the presence of the jury.)

19

THE COURT: Back on the record in 14-F-29. The Court

20

notes the appearance of Mr. Saunders in person and with his

21

lawyers. Prosecuting attorney for the State.

22

I have received a letter from the foreperson.

23

Unfortunately, the members of the jury are at a deadlock and

24

have made their minds up and will not change their mind one way

APPENDIX 44

548

1

or another. And that is their/our final answer.

2

If you-all want to take a look at it, you may. If

3

you don't, that's fine too. That will be lodged in the court

4

file.

5
6

Is there a motion? Or do you want the Court to make
a finding on its own?

7

MR. MINARDI: Move for mistrial.

8

THE COURT: I think this jury has been -- it started

9

yesterday afternoon. I don't know if they put a lot of time

10

in. But they at least got started. Did some work yesterday

11

afternoon. Deliberated until 11:30 this morning. Started back

12

again there probably before 12:30. Took one break in the

13

afternoon and have been hard at it ever since.

14

There were -- appeared to be a lot of well-reasoned

15

questions from the jury. The jury returned with a verdict.

16

The initial answer, it seemed to indicate that it was

17

everyone's verdict. I don't know if everybody said yes or no.

18

But there was a lot of yeses it was their verdict. When they

19

were polled, there were two members of the jury that did not

20

now or did not at that time consent to the -- to the verdict

21

and said it is not their verdict.

22
23
24

I am going to -- unless I hear an objection from the
State, I'm going to order a mistrial.
I want to address the jury with everybody in here.

APPENDIX 45

549

1

So if you'll get the jury in.

2

(Proceedings in the presence of the jury.)

3

THE COURT: Please be seated.

4

Ladies and gentlemen of the jury, I want to express

5

my appreciation for the time and the service that you've given

6

in this case. It has been a difficult case. You've been

7

conscientious. You've been attentive throughout.

8
9

One thing that I have noticed since I've been on the
bench, which just started in January -- I don't know if you

10

just are getting better lawyers down there than I was. Because

11

it seemed like whenever I was down there trying cases, the

12

people were going to sleep in the jury box. I didn't see that

13

here at all today. And I really haven't seen it in any of the

14

five cases that I've presided over prior to this one.

15

I understand you've sacrificed time away from

16

families, jobs, other obligations. You performed your duties

17

well. Without citizens such as you willing to sit in judgment

18

and render justice between parties, the judicial branch of the

19

government could not function.

20

Don't feel bad that you couldn't come to a decision.

21

It's just a situation -- this was a tough case. I understood

22

it sitting here. My law clerk, who is not here today,

23

understood it. We've talked about it. It was a tough case.

24

Don't concern yourselves, anyone else with your all's

APPENDIX 46

550

1

inability to reach a unanimous verdict. You all are the only

2

ones that were present for every part of the trial. You

3

listened to me give instructions. You listened to the lawyers

4

give their opening. Heard the testimony. You listened to

5

about 40 minutes' worth of instructions again. You listened to

6

closing arguments.

7

But the difference between you and the rest of the

8

people in the courtroom is you were actually there in the

9

deliberations. And you all are the only ones that were there

10

for the entire part of the trial. You're the only ones that

11

knew what was going on at every step of the way.

12

Don't worry about what anybody else may say about

13

this case, about where you were in the jury room, where you

14

weren't in the jury room, the fact that you couldn't reach a

15

unanimous decision. Nobody has the right to ask you to explain

16

why you did what you did or didn't do.

17

The lawyers -- now you're allowed to talk about the

18

case if you want. I'm going to advise you not to. Now, I know

19

I've told you a bunch don't talk about it with anybody else.

20

At this point, I'm directing the lawyers, the police, the

21

defendant, his family -- I'm directing everybody not to talk to

22

you about this case. That's not to say that if you want to

23

talk about the case you -- you can't. But I'm directing them

24

not to. If they want to talk to you about the case, they're

APPENDIX 47

551

1
2

going to have to come back to me and get an order.
With that, again, I give you my sincere appreciation

3

for your time and your service here. And with this, you are

4

excused for today.

5
6
7
8
9

Bad news, Sheila?
THE CLERK: They have to call back Monday to see if
they're needed Tuesday.
THE COURT: But you won't get me, because that's out.
I'll be --

10

THE CLERK: It's a different judge.

11

THE COURT:

-- dealing with some smiling faces in Jackson

12

County that day. So go and enjoy the Christmas parade, and

13

have a good weekend. Thank you.

14

JUROR: So we've got to call back Monday, Judge?

15

THE CLERK: Yes.

16

THE COURT: You do.

17

JUROR: Any particular time, Sheila?

18

THE CLERK: You can call me after two. Maybe I'll have an

19

answer for you then.

20

JUROR: Okay.

21

JUROR: What about work excuses?

22

THE CLERK: I can do that right now for you.

23

JUROR: I need one too.

24

THE CLERK: Okay.

APPENDIX 48

552

1

THE COURT: Do you want her list?

2

THE CLERK: Yes, please.

3

THE COURT: Yeah.

4

THE CLERK: See you guys.

5

THE COURT: Have a good weekend.

6

THE CLERK: You guys too.

7

The keys are in here somewhere, I hope.

8

MS. NICOLE VILLERS: We have them right there.

9

THE CLERK: Yes, they are.

10

MS. JOHNSON: I thought I heard them rattling.

11

THE CLERK: I did too, yeah.

12
13

I need someone to collect the exhibits for me. Bring
them down if you don't care.

14

MS. JOHNSON: Okay. I'll have Jeff do it.

15

THE CLERK: Okay.

16

THE COURT: You all can be seated.

17

I can offer you a trial in -- what's our trial -- if

18

you so desire. It's up to the State whether the State is going

19

to retry the case.

20

MS. JOHNSON: At this point, absolutely, yes.

21

THE COURT: Okay. All my stuff is in the room too. Do

22

you remember the date?

23

COURT REPORTER: December 12th?

24

THE COURT: No. We are looking next term.

APPENDIX 49

553

1
2

COURT REPORTER: It's in April. Sorry. Give me just a
second.

3

THE COURT: I didn't tell you that.

4

MS. JOHNSON: Was it sometime in -- I don't know.

5

THE COURT: I think I -- I don't remember if it was in

6
7
8
9

March or April.
COURT REPORTER: It's in April. But I can't remember
which date.
MR. MINARDI: It was like April the 10th or something.

10

THE COURT: I can look it up.

11

MS. JOHNSON: Let me get my calendar -- get it out -- it's

12

in my purse.

13

COURT REPORTER: Calhoun trials on April 10th.

14

MS. JOHNSON: Will you get the evidence and take it down?

15
16
17
18
19

Well, no. Never mind.
COURT REPORTER: Do you want me to see if there's any
earlier date?
THE COURT: Yes. Yeah. Go get the evidence and take it
down.

20

COURT REPORTER: I'm seeing April 10th, Judge.

21

THE COURT: April 10? Or no?

22

COURT REPORTER: Yes, sir. April 10.

23

THE COURT: April the 10th.

24

MS. JOHNSON: Okay.

APPENDIX 50

554

1
2
3

THE COURT: At 9:30 a.m. If you detect pretrial issues,
get with my office and schedule a pretrial.
Mr. Saunders, I don't know how many times I'll have

4

to say this to you. You're ordered to reappear on April

5

the 10th at 9:30 a.m.

6

MR. TODD SAUNDERS: Yes, Your Honor. I'll be here.

7

THE COURT: You all have a good weekend.

8

(Court adjourned at 5:06 p.m.)

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

APPENDIX 51

555

1

STATE OF WEST VIRGINIA

2

COUNTY OF CALHOUN, to wit:

3
4

I, Erin E. Kincaid, RPR, Official Reporter of the

5

Fifth Judicial Circuit, West Virginia, do hereby certify that

6

the foregoing is a true and correct transcript of the TRIAL had

7

in State of West Virginia vs. Jeremy Todd Saunders, Case No.

8

14-F-29 on Tuesday, the 28th day of November, 2017; Wednesday,

9

the 29th day of November, 2017; and Thursday, the 30th day of

10

November, 2017; and Friday, the 1st day of December, 2017, as

11

reported by me in machine shorthand.

12

I hereby certify that the transcript within meets

13

the requirements of the Code of the State of West Virginia,

14

Section 51-7-4, and rules pertaining thereto as promulgated by

15

the Supreme Court of Appeals.

16
17

Given under my hand this 18th day of February,
2019.

18

________________________________

19

Erin E. Kincaid, RPR
Official Reporter, Fifth Judicial
Circuit, West Virginia

20
21
22
23
24

APPENDIX 52

affirmations of the verdict such that it was inappropriate and prejudicial for the Circuit Court
to inquire further. Because there was unanimous concurrence, as required by Rule 31(d), the
only appropriate action for the Circuit Court to take was to record the not guilty verdict, and
discharge the Petitioner from further prosecution. The Circuit Court's failure to do so
constitutes a due process violation, specifically by trying the Petitioner a second time for the
same offense following a valid acquittal. (See, State v. Gill, 187 W.Va. 136, 416 S.E.2d 253
(1992); Article III, Section 5 of the West Virginia Constitution; Double Jeopardy Clause,
Fifth Amendment, United States Constitution, as incorporated by the Fourteenth
Amendment, United States Constitution.)
This Court has not directly examined the issue of what type of response constitutes an
affirmation sufficient to satisfy the "unanimous concurrence" requirement of Rule 31(d).
Other courts have. The most salient of these decisions from other jurisdictions is Johnson v.
United States, 470 A.2d 756 (D.C., 1983), in which the phrase "I guess" is specifically
analyzed. In Johnson, the jury returned a guilty verdict. Upon being polled, one juror said
"guilty, I guess," to which no objection was made by any party, and no further inquiry was
performed by the trial court. The District of Columbia Court of Appeals affirmed the
conviction, and held that the words "I guess," while "susceptible to different interpretations,"
did not require on their face further elaboration by the trial court. Id., at 759-60.
The Johnson Court, in footnote 2, observed that:
An example provided during oral argument serves to illustrate this
common use (or misuse) of the phrase "I guess." When two judges
pass in the hall shortly before they are both scheduled to attend an
appellate argument, one might well inquire of his colleague, "See
you in court?" The answer could reasonably be, "Sure, I guess." This
response would not, however, generally be understood to mean that
the responding judge is uncertain whether he will be attending the
argument.

In viewing the jurors' statements in the case below, in this light, the words "I guess"
9

APPENDIX 53

